HHS/OIG-Audit--"Need for Improved Financial Reporting and Monitoring
Related to National Institutes of Health Research Funds at Universities, (A-06-91-00073)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Need for Improved Financial Reporting and Monitoring Related to National
Institutes of Health Research Funds at Universities," (A-06-91-00073)
August 30, 1993
Complete
Text of Report is available in PDF format (2.52 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of selected research projects
awarded to universities throughout the United States. Our review showed that National
Institutes of Health funds were not always spent as budgeted. We also found that
in many cases awarded funds were not used during the budget period and were carried
forward to the next award period. Both practices are permissible under current
Government regulations. We also found that 52 of the 100 research projects reviewed,
totaling about $18.5 million, had unspent budget balances totaling $1,392,184,
about 7.5 percent, at the end of the award period. Projecting these results to
the 11,453 research projects totaling about $2.7 billion in our sample universe,
we estimate that 5,956 awards would have unspent budget balances totaling $159,446,834,
about 5.9 percent of the total amount awarded.